                               September 30, 1998

                               M. RICHARD PORRAS
                               CHIEF FINANCIAL OFFICER
                               AND SENIOR VICE PRESIDENT

                               ALLEN R. KANE
                               CHIEF MARKETING OFFICER
                               AND SENIOR VICE PRESIDENT

                               SUBJECT:	 Stamp Out Breast Cancer Act and Stamp
                                         (RG-MA-98-007)

                               In order to provide proactive feedback to United States Postal
                               Service (USPS) management, we performed a review of USPS
                               actions to implement the Stamp Out Breast Cancer Act (Act).
                               We identified several issues concerning implementation of this
                               legislation that warrant further attention. This Management
                               Advisory Report highlights our observations related to these
                               issues and offers suggestions for improvement. We have
                               summarized your comments after each suggestion in this report
                               and included the comments as Attachment 1.

                               To perform this review, we evaluated the USPS’ estimates of
                               projected revenue and costs and management controls over the
                               tracking and reporting of stamp revenue and expenses. Our work
                               was conducted during July and August 1998, in accordance with
                               the President’s Council on Integrity and Efficiency, Quality
                               Standards for Inspections.

Results in Brief 	             The USPS has taken aggressive action to implement the Act as
                               evidenced by the development of a comprehensive advertising
                               and promotions plan and the early availability of the Breast
                               Cancer Research Semipostal1 stamp (the Stamp). This Stamp was
                               available July 29, 1998, less than 1 year after the Act was signed.

                               While significant progress has been made, our review disclosed
                               that USPS management could strengthen controls in the
                               following areas: project budgeting and tracking incremental
                                      2



1
    Semipostal stamps are special stamps bearing a surcharge over the normal postage rate.
Stamp Out Breast Cancer Act and Stamp	                                                    RG-MA-98-007


                             costs;2 defining incremental costs; and implementing a
                             Memorandum of Understanding with the Department of Defense
                             (DOD) and the National Institutes of Health (NIH). Because the
                             Stamp will be available to the public for only 2 years, we believe
                             that USPS management should give these issues prompt attention.
                             This would permit USPS to properly monitor costs incurred to
                             produce, market, distribute and sell the Stamp and maximize the
                             total contribution towards breast cancer research. We plan to
                             perform additional work on the sale of the Stamp in 1999.

Suggestions 	                On the basis of our review, we offer the following
                             suggestions to USPS management officials:

                             Suggestions for the Chief Marketing Officer, Senior Vice
                             President:

                             1. 	 Develop a detailed operational budget for identifying
                                  costs and revenues specifically attributable to the
                                  Stamp. Additionally, the impact of the new first class
                                  rate should be considered in developing revenue
                                  estimates.

                             Suggestions for the Chief Financial Officer, Senior Vice
                             President:

                             2. 	 Issue guidance to all offices that incur costs in
                                  connection with the Stamp informing them to use the
                                  assigned finance number and identifying where and
                                  how to report these costs.

                             3. 	 Identify and define what constitutes reasonable
                                  incremental costs incurred in carrying out this Act and
                                  develop a policy that incorporates this definition.
                                  Disseminate this information in a Postal Bulletin.

                             4. 	 Expedite the completion of the Memorandum of
                                  Understanding with DOD and NIH to ensure research
                                  payments are made as required.




2
 Incremental costs are costs that are not normally incurred in connection with regular commemorative issues, such
as the costs associated with printing special receipts for this stamp.

                                                        2
                                             Restricted Information
Stamp Out Breast Cancer Act and Stamp                                                          RG-MA-98-007



Background 
                   On August 13, 1997, the President
                               signed into law an Act that
                               mandated USPS establish a special
                               first-class postage stamp within 12
                               months. This law affords
                               customers the opportunity to
                               voluntarily contribute to breast-
                               cancer research through the
                               purchase of these special stamps.
                               The Act mandated that the cost of
                               the Stamp be equal to the first-class
                               rate, plus a differential (not to
                               exceed 25 percent or $.08).

                               In accordance with the Act, the USPS Governors
                               approved the differential at the maximum 25 percent, and
                               the USPS issued the first 40-cent nondenominational3
                               Breast Cancer Stamp on July 29, 1998. The Stamp will be
                               available to the public for a 2-year period. Seventy
                               percent of the amounts becoming available for breast
                               cancer research will be paid to the NIH and the remaining
                               30 percent to the DOD Medical Research Program.
                               Payments are to be made under an agreement except that
                               these payments shall be made at least twice a year. The
                               differential may be reduced by an amount sufficient to
                               cover reasonable costs for items such as printing, selling
                               and distributing the stamps prior to payment to NIH and
                               DOD.

                               The Act also provides that the General Accounting Office
                               perform a review on the Breast Cancer Stamp operation
                               before the end of the 2-year period.

Management      USPS officials have taken numerous actions designed to
Accomplishments ensure the success of the Stamp. Specifically, USPS
                               “developed a comprehensive advertising and promotions
                               plan to support the national launch of the Breast Cancer
                               Research Stamp.” Promotional initiatives included: “field
                               kit(s) sent to USPS offices; TV/radio interviews and a
                               video news release featuring First Day of issue ceremony;
                               postal communications, including: Postal Life, Vision,
                               Link, Marketline and Marketplace; and a Press Kit sent to
                               major media and health organizations.


3
    Nondenominational stamp has a value equivalent to the current first-class postage stamp.

                                                           3
                                                Restricted Information
Stamp Out Breast Cancer Act and Stamp	                                         RG-MA-98-007


                          Major media placements to date include magazines
                          expected to cover stamp: People, Women’s Day,
                          Cosmopolitan, Good Housekeeping, and others; Rosie
                          O’Donnell Show announcing the stamp on the July 27,
                          1998, airing of the show; nationwide TV coverage of the
                          May 9, 1998, stamp unveiling at the Revlon Run/Walk for
                          Women in California; nationwide newspaper coverage
                          and additional coverage; featured unveilings in
                          Washington, D.C., Chicago, Boston and others.”

Observations 	            Our review of management controls over the tracking and
                          reporting of stamp revenue and expenses, revealed that
                          improvements are needed regarding: project budgeting;
                          tracking incremental costs; defining incremental costs;
                          and implementing a Memorandum of Understanding.

Project Based             USPS has formulated estimates of total revenues and
Budget                    costs. However, to control spending on incremental costs
                          incurred with implementing the Act, officials should
                          establish target-spending levels and a national operating
                          budget.

                          The current USPS budgeting method does not entail the
                          establishment of thresholds for various spending
                          categories specifically attributable to the Breast Cancer
                          Stamp. In order for USPS to minimize costs associated
                          with the Stamp (thereby maximizing contributions to NIH
                          and DOD), a national operating budget is needed that
                          delineates specific spending limitations for each
                          component. This operating budget should be formulated
                          based on allocations of resources to the individual
                          components within USPS participating in the project (e.g.
                          Stamp Services).

                          Without a national operating budget, total incremental
                          costs incurred for the Stamp could significantly exceed
                          expectations. Our discussions with USPS officials
                          disclosed that they could not readily provide information
                          such as the nationwide target spending levels for items
                          such as advertising, printing, etc. Accordingly, there is no
                          mechanism in place for management to monitor whether
                          costs incurred are exceeding projections.




                                                    4
                                         Restricted Information
Stamp Out Breast Cancer Act and Stamp                                         RG-MA-98-007


                         USPS Stamp Services officials advised us that they are
                         currently developing an operating budget for Fiscal Year
                         1999. However, this budget will not include cost
                         estimates for the other USPS components incurring
                         expenditures relating to this project.

                         In addition, the new first-class rate will take effect on
                         January 10, 1999. This increase raises the current $.32
                         first-class rate to $.33. This factor may impact the USPS’
                         contribution to fund breast cancer research.

Tracking                 USPS has provided some guidance on tracking costs
Incremental              relating to the Breast Cancer Stamp, however, additional
                         guidance is needed to ensure that all attributable costs are
Costs
                         reported and tracked.

                         Prior to issuing the Stamp, USPS Administrative Support
                         Manual was amended in June 1998, and identified those
                         offices within Headquarters required to track, or as
                         appropriate, estimate cost information in connection with
                         the special postage stamp. However, detailed guidance
                         was not provided to component organizations that
                         addressed specific procedures for tracking incremental
                         costs related to the Stamp. Such guidance should specify
                         the assigned finance number to be used and identify where
                         and how to report these costs. Without accurate cost data,
                         USPS will not be able to accurately determine the
                         amounts to be remitted to NIH and DOD.

Defining                 The USPS has not defined which incremental costs
Incremential             associated with the Stamp will be offset against revenue.
                         The Act allows USPS to recover “reasonable costs”
Costs
                         including those attributable to the printing, sale, and
                         distribution of the Stamp. Incremental costs may include
                         clerk training; retail system programming; tax receipts;
                         promotional items; and other labor; material and overhead
                         costs attributable to the Stamp. By identifying and
                         recovering reasonable costs associated with the Stamp,
                         USPS will be able to accurately determine the appropriate
                         contribution towards breast cancer research and issue
                         payments to these agencies as intended by the law.




                                                   5
                                        Restricted Information
Stamp Out Breast Cancer Act and Stamp	                                         RG-MA-98-007



Mutual                    On July 15, 1998, USPS requested that DOD and NIH
Agreement                 designate points of contact. However, USPS does not yet
                          have a Memorandum of Understanding in place with each
                          agency regarding when payments are to be made. Such
                          agreements are needed to enable USPS to remit payments
                          to these agencies as required by the Act.


Suggestions 
             We have the following suggestions for the Chief
                          Marketing Officer, Senior Vice President and the Chief
                          Financial Officer, Senior Vice President to help the USPS
                          successfully implement this legislation:

                          Suggestions for the Chief Marketing Officer, Senior Vice
                          President:

                          1. 	 Develop a detailed operational budget for
                               identifying costs and revenues specifically
                               attributable to the Stamp. Additionally, the impact
                               of the new first class rate should be considered in
                               developing revenue estimates.

                             Management’s Response

                             The Office of Stamp Services has prepared and
                             submitted a detailed budget plan for FY 1999.
                             The Breast Cancer Program (BCP) was implemented
                             outside of the normal budget cycle. An operating
                             budget for the Breast Cancer Stamp was not
                             established for FY 1998 for the following reasons: the
                             FY 1998 budget had already been approved and
                             locked in place; and it was not until early June of 1998
                             that the USPS Board of Governors approved the
                             implementation plan and established the amount of the
                             differential.

                             USPS has also projected revenues based on the level
                             of awareness they hope to generate; these projections
                             are difficult because they have no history to base it on.

                             Evaluation of Management’s Response

                             We recognize why management had not prepared an
                             operating budget for the Breast Cancer Stamp project
                             for FY 1998, and that Stamp Services has prepared
                             and submitted a detailed budget plan for FY 1999.

                                                    6
                                         Restricted Information
Stamp Out Breast Cancer Act and Stamp	                                       RG-MA-98-007


                             Management should ensure that the national budget
                             for operating the Breast Cancer Stamp program
                             incorporates all USPS components and includes all
                             detailed expected variable costs.

                             In their reply, Management stated their intention to
                             forego any of the incremental costs. Since these costs
                             will not be recovered, a preventative cost controlling
                             mechanism such as a variable cost budget with
                             spending ceilings is needed. This will help to ensure
                             that unexpected costs will be brought to management’s
                             attention before they are incurred, and will aid in
                             assessing the completeness of the actual costs reported
                             by corporate accounting.


                          Suggestions for the Chief Financial Officer, Senior Vice
                          President:

                          2. 	 Issue guidance to all offices that incur costs in
                               connection with the Stamp informing them to use
                               the assigned finance number and identifying where
                               and how to report these costs.

                              Management’s Response

                             USPS will continue to track all costs although senior
                             management has determined that incremental costs
                             involved in administering and selling the Breast
                             Cancer Stamp will not be offset against the established
                             differential. USPS anticipated that Stamp Services at
                             Headquarters would incur the bulk of the costs relating
                             to the stamp, therefore, management intentionally did
                             not provide the program finance number to Retail
                             Units or District Accounting Offices for control
                             purposes. Additionally, corporate accounting has been
                             pro-active in issuing procedures in regard to cost
                             tracking. For Breast Cancer Stamp expenditures
                             corporate accounting is reviewing all source
                             documentation for accuracy.

                             Evaluation of Management’s Response

                             In their response management explained the rational
                             for not providing Retail Units and District Accounting
                             Offices with the program finance number. The


                                                    7
                                         Restricted Information
Stamp Out Breast Cancer Act and Stamp	                                        RG-MA-98-007


                             decision was based impart on the assumption that Stamp
                             Services Headquarters would initially incur the bulk of the
                             costs. Management should consider distributing the program
                             finance number to Retail Units and District Accounting
                             Offices at this time for efficient administration of the
                             program.

                          3. 	 Identify and define what constitutes reasonable
                               incremental costs incurred in carrying out this Act
                               and develop a policy that incorporates this
                               definition. Disseminate this information in a Postal
                               Bulletin.

                             Management’s Response

                             The Postal Service is tracking all costs associated with
                             the BCP. The Postal Service has identified and
                             defined what constitutes reasonable incremental costs
                             incurred in carrying out this Act and the offices
                             responsible for tracking costs. The policy was
                             published in June 1998 in Administrative Support
                             Manual Section 645. This information was also
                             published in a Postal Bulletin article to ensure that
                             there was a clear understanding among headquarters
                             offices of the responsibility for maintaining
                             information on tracking costs.

                             Senior Management has determined that the
                             incremental costs involved in administering and
                             selling the stamp will not be offset against the revenue
                             received in excess of the First class mail single piece
                             rate. The Postal Service has issued guidance to track
                             all costs which was disseminated to the various offices
                             as needed. Therefore, there is no need to further
                             disseminate this information in a Postal Bulletin.

                             Evaluation of Management’s Response

                             The intent of our suggestion was aimed at having
                             USPS spell out specific types and monetary
                             thresholds. The ASM 645 (dated June 1998) clearly
                             states: “ASM 645 does not spell out the types or
                             amounts of “reasonable costs incurred by the Postal
                             Service…That decision is to be made at a later date.”




                                                    8
                                         Restricted Information
Stamp Out Breast Cancer Act and Stamp	                                        RG-MA-98-007


                             USPS management has subsequently decided not to
                             recover any incremental costs against revenue received
                             from the differential. We realize the sensitivity of this
                             issue. However, we believe that the decision to absorb
                             all administrative and selling costs could be construed
                             as a donation by the USPS for breast cancer research.
                             This donation would become an involuntary
                             contribution by all ratepayers from established revenue
                             rates and could be a precedent for administering any
                             future semipostal stamps. We are continuing to
                             explore these issues.

                          4. 	 Expedite the completion of the Memorandum of
                               Understanding with DOD and NIH to ensure
                               research payments are made as required.

                             Management’s Response

                             Management does not agree with the suggestion to
                             expedite the completion of the Memorandum of
                             Understanding (MOU) with DOD and NIH.
                             Management is aware that the Act requires semi-
                             annual payments to DOD and NIH. Management
                             stated they have been proactive in meeting their
                             obligations. The MOU with DOD and NIH is in draft
                             form. Finance management held a meeting with DOD
                             and NIH on September 3, 1998, to finalize the MOU.
                             At that meeting the other government agencies (DOD
                             and NIH) requested that the payment be made on
                             November 1, 1998. Management stated they know
                             that MOUs between government agencies historically
                             have taken considerable time to be signed even when
                             agreements have been worked out. Nonetheless,
                             USPS is not at risk of failing to ensure that payments
                             are made as required.

                             Evaluation of Management’s Response

                             We recognize that executing formal agreements
                             between agencies can take considerable time. We
                             believe that having signed agreements in place before
                             any payments are made would facilitate payment
                             administration and minimize possible
                             misunderstandings. We request that the OIG be
                             provided with a copy of the MOU after it is executed.



                                                    9
                                         Restricted Information
Stamp Out Breast Cancer Act and Stamp                                       RG-MA-98-007


                         We have prepared this assessment in order to provide you
                         with feedback and to keep you fully apprised of our work.
                         We plan to perform additional work in this area.

                         We appreciate the cooperation and courtesies of your staff
                         in performing the review. If you have any questions or
                         would like to discuss these issues further, please contact
                                        , or me on (703) 248-2300.




                         Sylvia L. Owens
                         Assistant Inspector General
                          Revenue/Cost Containment

                         Cc:




                                                  10
                                        Restricted Information
Stamp Out Breast Cancer Act and Stamp                         RG-MA-98-007


                         Major contributors to this report:




                                              11
                                    Restricted Information
